                                      Office of Inspector General
                                     Corporation for National and
                                              Community Service




      AUDITOF CORPORATIONFOR NATIONALAND
        COMMUNITYSERVICE
                       GRANTS  AWARDED
      TO THE EDUCATIONAL
                      SERVICE DISTRICT112

               OIG REPORT    05-12
                        NUMBER




                                                      NATIONAL^
                                                     COMMUNITY
                                                     SERVICEEZZZ




                             Prepared by:

                    Conrad And Associates, L.L.P.
                    2301 Dupont Drive, Suite 200
                       Irvine, California 92612




      This report was issued to Corporation management on March 2, 2005. Under
      the laws and regulations governing audit follow-up, the Corporation is to make
  i   final management decisions on the report's findings and recommendations no


"
      later than September 2, 2005, and complete its corrective actions by March 2,
      2006. Consequently, the reported findings do not necessarily represent the
      final resolution of the issues presented.
i r
                                 Office of Inspector General
                       Corporation for National and Community Service
                                     Audit Report 05- 12

       Audit of Corporation for National and Community Service Grants Awarded to the
                                Educational Service District 112

                                        OIG Summary

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), retained Conrad and Associates, L.L.P. (Conrad) to perform an incurred-cost audit
of grants awarded to the Educational Service District 112 (ESD). The contract required that the
audit be done in accordance with generally accepted government auditing standards.

In accordance with our statutory responsibilities, we reviewed Conrad's report and related audit
documentation, interviewed their representatives, and performed other procedures as we deemed
appropriate in the circumstances to provide reasonable assurance that the audit was performed in
accordance with generally accepted government auditing standards. Our review was not
intended to enable us to express, and we do not express, opinions on ESD's Consolidated
Schedule of Award Costs or internal control or on conclusions on compliance with laws and
regulations. Conrad is responsible for the attached reports dated October 22, 2004, and the
conclusions expressed therein. However, our review disclosed no instances where Conrad did
not comply, in all material respects, with generally accepted government auditing standards.

For the grants audited, ESD claimed costs of $10,090,080, of which the auditors questioned
$9,537 of unallowable claimed costs. Overall, the auditors questioned less than one percent of
claimed costs. The auditors also noted instances of noncompliance with provisions of Federal
laws, regulations and grant award provisions. The auditors concluded that the Consolidated
Schedule of Award Costs presents fairly the costs claimed by ESD, except for the questioned and
unsupported costs identified in the report, and the effects of any adjustments.

ESD's response to the draft report includes modification or implementation of policies and
procedures to correct the noncompliance issues, as well information about the questioned costs.
These actions will be reviewed by the Corporation as part of the audit resolution process.

The Office of Inspector General provided officials of the Educational Service District 112 and
the Corporation with a draft of this report for their review and comment. Their responses are
included as Appendices A and B, respectively.
                            Corporation for National and Community Service
                          Grants Awarded to the Educational Service District 112
                                        Vancouver, Washington



                                                     TABLE OF CONTENTS
                                                                                                                                                Page
REPORT SUMMARY AND HIGHLIGHTS

        Results in Brief .............................................................................................. . . . . . . . . . . . . . .... 1
        Grant Programs Audited ................................................................................. . . . . . . . . . . .... . . 1
        Costs Questioned ........................................................................................... . . . . . .. . . . . . . . ...2

        Compliance ............... ............ ............................................ ............................... . . . . . . . .. ... ...2

        Internal Controls ............................................................................................. . . . . . . . .. . . . ....3

        Purpose and Scope of Audit ........................................................................... . . . . . . . . . . . . . . ...3

        Background ...................................................................................................... . . . ... . .. . . . . ..4

INDEPENDENT AUDITOR'S REPORT .................................................................... ..............6

FINANCIAL SCHEDULES

        Consolidated Schedule of Award Costs ......................................................... . . . . . .. . . ..... ...8


        Exhibit A - Schedule of Award Costs:
                    AmeriCorps ............................................................... .................. . . . .. . . ... . .... 10
                    Schedule A- 1 - Schedule of Award and Questioned Costs:
                                    Grant Number 00ADNOR005 ................................... . . . . . . . . . .. ....1 1
        Exhibit B - Schedule of Award Costs:
                    AmeriCorps ................................................................................. .. . .. . . . . . . . . .12

                    Schedule B-1 - Schedule of Award and Questioned Costs:
                                   Grant Number 0 1ADNOROOS................................... .. ... . . . .. . .... 13
         Exhibit C - Schedule of Award Costs:
                     Learn & Serve (L&S) ................................................................ .. .. . . . . . . . .... 14

                    Schedule C-1 - Schedule of Award and Questioned Costs:
                                   Grant Number 00LCGWA006 ........ .......................... .. .. . . . .. . . ....15
                     Corporation for National and Community Service
                   Grants Awarded to the Educational Sewice District 112
                                 Vancouver, Washington



                                 TABLE OF CONTENTS - Continued


COMPLIANCE AND INTERNAL CONTROLS

    Independent Auditor's Report on Compliance and Internal Controls
           Over Financial Reporting ..................................................................................16

              Compliance Findings ........................................................................................ 16
              Internal Control Findings ................................................................................. .30
RESPONSES TO REPORT

     Educational Service District 1 12 ................................................................... Appendix A

     Corporation for National and Community Service ........................................ Appendix B
REPORT SUMMARY AND HIGHLIGHTS
CONRAD                                                                        CERTIFIED PUBLIC ACCOUNTANTS

ASSOCIATES, m..,                                                                            2301 D U P O N T DRIVE, SlJlTE 200
                                                                                                 IRVINE, CALIFORNIA 3261 2
                                                                                                               (949) 474-2020
                                                                                                           Fax (949) 263-5520




 Office of Inspector General
 Corporation for National and Con~inunityService


 This report is issued under an engagement to audit the costs claimed by the Educational Service
 District 112 (ESD) and its subrecipients from August 1, 2000, through June 30, 2004, .under the
 grants awarded by the Corporation for National and Community Service (Corporation). This
 report focuses on the audit of claimed costs, instances of nor~conipliancewith Federal laws,
 applicable regulations or award conditions, and internal control weaknesses disclosed during the
 audit of ESD and its subrecipients.

                                               Results in Brief

 As a result of our audit, we are questioning costs totaling $9,537, which represents less than 1
 percent of the total $10,090,080 in costs claimed by ESD. Questioned costs are costs for which
 there is documentation that the recorded costs were expended in violation of the law, regulations
 or specific conditions of the award, or those costs which require additional support by the grantee
 or require interpretation of allowability by the Corporatiori. Costs questioned include costs not
 allocable to the grants and costs not adequately supported by documentation. The Independent
 Auditor's Report includes further detail on these questioned costs.

                                         Grant Programs Audited

 Our audit of ESD covered financial transactions, compliance, and internal control testing of the
 following program awards funded by the Corporation:

   Program                Award Number                    Award Period -               --   Audit Period
 AmeriCorps               00ADNOR005                   8/1/00 to 12/31/01              8/1/00 to 12/31/01
 AmeriCorps               0 1ADNOROO5                  811101 to 12131/04              81110 1 to 6/30/04
 Learn & Serve            00LCGWA006                   9/1/00 to 9/30/04               911 100 to 6130104




                                                         1
                     MEMBERS OF AlCPA AND CALIFORNIA SOCIETY OF CERTIFIED PUBLIC ACCOUNTANTS
          MEMBER OF AMERICAN INSTITUTE O F CERTIFIED PlJBLlC ACCOUNTANTS PRIVATE COMPANIES PRACTICE SECTION
Our audit of the costs claimed by ESD under these awardsdisclosed the following:

                                                                Percentage of
                                                 Amount       BudgetIClaimed Costs

Award Budget                                   $12,002,322
Claimed Costs                                  $10,090,080             84.1 percent
Questioned Costs                               $     9,537

                                       Costs Ouestioned

The following summarizes the costs questioned on these awards:

           Unallowable Direct Costs
           Unsupported Direct Costs
           Unallocable Direct Costs
           Unallocable Payroll Costs

       Subtotal of Costs Questioned

       Education Awards

       Total Costs Questioned

We used judgmental sampling methodology to test the costs claimed. Based upon this sampling
plan, questioned costs in this report may not represent total costs that may have been questioned
had all expenditures been tested. We have made no attempt to project such costs to total
expenditures incurred based on the relationship of costs tested to total costs. For a complete
discussion of these questioned costs, refer to the Independent Auditor's Report.

                                          Compliance

Our audit disclosed the following instances of noncompliance with Federal laws, applicable
regulations and award conditions:

        1. AmeriCorps member files were missing required documentation.
        2. The ESD did not obtain background checks on some AmeriCorps members who
           served with children.
        3. One AmeriCorps member file did not contain adequate documentation validating
           eligibility.
        4. AmeriCorps enrollment and exit forms were not submitted on a timely basis to the
           National Service Trust database in accordance with the AmeriCorps Provisions.
        5. Program income was improperly credited to the grant during the grant award period.
                                       Internal Controls

Finding Nos. 1 through 5, as set forth in the Compliance section of the report, are also considered
internal control findings. We also noted instances of costs claimed that were non-allocable and
unallowable to the grants, which we consider to be internal control weaknesses. Lastly, we noted
inconsistencies in calculating the prorated share of the final payment to members who exit the
program early.

                                  Purpose and Scope of Audit

Our audit covered the costs claimed under Corporation Grant Nos. 00ADNOR005,
0 I ADNOROOS. and 00LCGWA006.

The principal objectives of our audit were to determine whether:

           Financial reports prepared by ESD fairly presented the use of the awards;

           Internal controls were adequate to safeguard Federal funds;

           The ESD and its subrecipients had adequate procedures and controls to ensure
           compliance with Federal laws, applicable regulations, and award conditions, and that
           member services were appropriate for the programs;

           Award costs reported to the Corporation were documented and allowable in
           accordance with award terms and conditions; and

           The ESD had established adequate oversight and informed subrecipients of the
           Corporation's Government Performance and Results Act (GPRA) goals.

We performed the audit in accordance with auditing standards generally accepted in the United
States of America and generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the
amounts claimed against the awards, as presented in the Consolidated Schedule of Award Costs
and the grant-specific Schedules of Award Costs (Exhibits A through C), are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts
and disclosures in Exhibits A through C. An audit also includes assessing the accounting
principles used and significant estimates made by the auditee, as well as evaluating the overall
financial schedule presentation. Our audit included reviews of audit reports and working papers
prepared by the independent public accountants for the ESD and its subrecipients in accordance
with the requirements of OMB Circular A-133, Audits of States, Local Governments and Non-
profit Organizations. We believe our audit provides a reasonable basis for our opinion.

With regard to GPRA, AmeriCorps grantees and subrecipients provide progress reports that are
maintained in the Web-Based Reporting System (WBRS). The Corporation develops program
reporting guidelines that cascade from its Federal reporting requirements. The ESD does not
make continuation grants available to subrecipients that do not meet program objectives unless
extenuating circumstances prevented the subrecipient from meeting its objectives. Program
effectiveness is monitored through site visits and data found within WBRS.

The contents of this report were disclosed to and discussed with ESD at an exit conference on
October 28, 2004. In addition, we provided a draft of this report to ESD and to the Corporation
for comment on December 8, 2004, and received responses from both ESD and the Corporation
on January 6, 2005, and December 27, 2004, respectively. Their responses are included in their
entirety as Appendices A and B, respectively.

In their response, ESD noted that the total amount of questioned costs identified in the report
represented an immaterial percentage of the total expenditures audited and cited OMB Circular
A-1 33, Section E.510, regarding the threshold for auditors reporting a finding. ESD maintained
that the less than one percent of questioned costs identified did not meet the criteria in Circular
A-133 requiring the auditors to make a finding or for the Federal government to recover funds.

Although ESD is correct about the requirements of OMB Circular A-133 and the materiality
thresholds specific to a Single Audit, we were not engaged to perform a Single Audit. As such,
we did not conclude on costs claimed using the criteria applicable to OMB Circular A-1 33.

                                          Background

The Corporation, pursuant to the National and Community Service Act, as amended, awards
grants and cooperative agreements to National Direct grantees such as ESD and other entities to
assist in the creation of full-time and part-time national and comn~unityservice programs.

The ESD is one of nine service districts in the State of Washington established to provide
services to local schools within their service area. The expressed purpose of ESD is to ensure
equal opportunities for quality education and lifelong learning for all by acting as a liaison
between local school districts and the State Office of the Superintendent of Public Instruction.
The ESD serves six counties in Southwest Washington.

The ESD has received approximately $12 million in funding and exercised $10 million in draw
downs from Corporation funds since 2000, including AmeriCorps and Learn & Serve funds. The
ESD had one subrecipient of its AmeriCorps 01ADNOR005 grant, which received a total of
$563,612 during a two-year period.
As of June 30, 2004, ESD had received funding from the Corporation for various programs
within the scope of this engagement in the amount of $12,002,322. A brief synopsis of the
programs follows:
                                        Funding Costs Claimed Within Draw Downs
                                      Authorized      Audit Period  During Audit Period

00ADNOR005 - AmeriCorps                 $2,342,522       $ 2,342,522        $ 2,342,522
0 1ADNOROOS - AmeriCorps                 8,864,800          6,952.558          6,952,736

       Total AmeriCorps Funds           1 1,207,322         9,295,080          9,295,258

00LSGWA006 - Learn & Serve

TOTAL - Grants Administered
          by ESD                        $12,002.322      $10.090.080*       $ 10.075,786*

*      The differences between the amounts claimed and amounts drawn down are generally
       due to timing issues.

                                       Report Release

This report is intended for the information and use of the Office of Inspector General, the
Corporation for National and Community Service, the Educational Service District 112 and its
subrecipients, and the U.S. Congress. However, this report is a matter of public record and its
distribution is not limited.
 -
                                                                                       CERTIFIED PUBLIC A C C O U N T A N T S

ASSOCIATES, u . . P                                                                                   2301 DUPONT DRIVE, SUITE 200
                                                                                                           IRVINE, CALIFORNIA 9261 2
                                                                                                                       (949) 474-2020
                                                                                                                   Fax (9491 263-5520




     Office of Inspector General
     Corporation for National and Community Service

                                     INDEPENDENT AUDITOR'S REPORT

     We have audited the costs incurred by the Educational Service District 112 (ESD) for the award
     numbers listed below. These costs, as presented in the Consolidated Schedule of Award Costs
     and the grant-specific Schedules of Award Costs (Exhibits A tluough C), are the responsibility of
     ESD management. Our responsibility is to express an opinion on the Consolidated Schedule of
     Award Costs and Exhibits A tlxough C based on our audit.

        Program               Award Number                           Award Period                      Audit Period

     AmeriCorps               00ADNOR005                      8/ 1/00 to 1213 1/O 1              8/1/00 to 12131/01
     AmeriCorps               0 1ADNOROO5                     8/1/01 to 1213 1/04                811/0 1 to 6130104
     Learn & Serve            00LCGWA006                      9/1/00 to 9/30/04                  9/1/00 to 6130104


     We conducted our audit in accordance with auditing standards generally accepted in the United
     States of America and the generally accepted government auditing standards. Those standards
     require that we plan and perform the audit to obtain reasonable assurance about whether the
     financial schedules are free of material misstatement. An audit includes examining, on a test
     basis, evidence supporting the amounts and disclosures in the financial schedules. An audit also
     includes assessing the accounting principles used and significant management estimates, as well
     as evaluating the overall financial schedule presentation. We believe our audit provides a
     reasonable basis for our opinion.

     In our opinion, except for the omission of the supporting source documentation related to the
     $9,537 in questioned costs discussed in the compliance section of the report, the Consolidated
     Schedule of Award Costs and the grant-specific Schedules of Award Costs (Exhibits A through
     C and related Schedules) referred to above present fairly, in all material respects, the costs
     claimed for the period August 1, 2000, to June 30, 2004, in conformity with generally accepted
     accounting standards in the United States of America.

     In accordance with the generally accepted government auditing standards, we have also issued
     our report, dated October 22, 2004, on compliance and on internal controls over financial
     reporting.




                                                                 6
                           MEMBCRS OF AlCPA AND CALIFORNIA SOCIETY 01CERTIFIED PUBLIC ACCOUNTANTS
               MCMBERor   AMCRICAN A - T   ~ or l C I ~TIFICD
                                                           ~  PI RLIC K ~ ~ ~ ~ ~ TPRIVATT
                                                                                    A N T COMPAI\IIFS
                                                                                           S          PMCTICF   SECTION
This report is intended for the information and use of the Office of Inspector General, the
Corporation for National and Community Service, Educational Service District 112 and its
subrecipients, and the U.S. Congress. However, this report is a matter of public record and its
distribution is not limited.




Conrad And Associates, L.L.P.
Irvine, California

October 22,2004
                   Corporation for National and Community Service
                          Educational Service District 112
                       Consolidated Schedule of Award Costs
                          August 1,2000, to June 30,2004




                            Approved        Claimed      Questioned
Award Number    Program      Budget          Costs         Costs      Reference

00ADNOR005 AmeriCorps       $ 2,342,522    $ 2,342,522   $   1,676    Exhibit A
0 1ADNOR005 AmeriCorps        8,864.800      6,952,558       3,253    Exhibit B

    Total AmeriCorps         1 1,207,322    9,295.080        4,929

00LSGWA006 Learn & Serve       795,000        795.000        4,608    Exhibit C

    Total
                      Corporation for National and Community Sewice
                               Educational Sewice District 112
                       Notes to Consolidated Schedule of Award Costs
                               August 1,2000, to June 30,2004




Summary of Significant account in^ Policies

Reporting Entity

The accompanying Consolidated Schedule of Award Costs includes amounts budgeted, claimed,
and questioned under AmeriCorps and Learn & Serve grants awarded to the Educational Service
District 112 (ESD) by the Corporation for National and Community Service (Corporation) for
the period from August 1,2000, to June 30,2004.

Of the two AmeriCorps grants audited, the ESD had no subrecipients for the first grant awarded,
grant number 00ADNOR005. For the second grant awarded, grant number 0 1ADNOR005,
the ESD awarded AmeriCorps grant funds to one subrecipient that administered an AmeriCorps
program and reported financial and programmatic results to ESD.

Basis of Accounting

The accompanying Schedules have been prepared to comply with the provisions of the grant
agreements between the Corporation and ESD. The information presented in the Schedule has
been prepared from the reports submitted by ESD to the Corporation. The basis of accounting
used in preparation of these reports differs slightly from accounting principles generally accepted
in the United States of America as follows:

       Equipment

Equipment is charged to expense in the period during which it is purchased instead of being
recognized as an asset and depreciated over its useful life. As a result, the expenses reflected in
the Schedule of Award Costs include the cost of equipment purchased during the period rather
than a provision for depreciation. The equipment acquired is owned by ESD while used in the
program for which it was purchased or in other programs that will be authorized in the future.
However, the Corporation has a reversionary interest in the equipment. Its disposition, as well as
the ownership of any proceeds therefrom, is subject to Federal regulations.

       Inventory

Minor materials and supplies are charged to expense during the period of purchase.
                                                                                Exhibit A

                     Corporation for National and Community Service
                            Educational Service District 112
                                Schedule of Award Costs
                      Award Number 00ADNOR005 (AmeriCorps)
                          August 1,2000, to December 31,2001




                                    Claimed      Questioned
Detailed Audits of AmeriCorps        Costs      Claimed Costs   Reference

00ADNOR005 - ESD                   $2,342,522      $   1,676

    Subrecipients                                          -

Total - Detailed Audits            $2.342.522      $   1.676    Schedule A- I
                                                                               Schedule A-1

                     Corporation for National and Community Service
                             Educational Service District 112
                        Schedule of Award and Questioned Costs
                             Award Number 00ADNOR005
                          August 1,2000, to December 31,2001




                                                                                Reference

Approved Budget
Claimed Costs
Questioned Costs
   Payroll Costs not Allocable to Grant                                         Note 1
   Unallowable Direct Costs                                                     Note 2

Total Questioned Costs

Questioned Education Awards

Notes

1. The ESD inadvertently claimed 100 percent of a member's living allowance to the grant
   rather than the required allocation of 85 percent to the grant and 15 percent to the grant
   match. The questioned costs represent the portion that should have been recorded to the
   grant match. See Compliance Finding Number 3, Part B for further details.

2. We noted two transactions that did not meet the prescribed cost principles or grant
   provisions. See Compliance Finding Number 1. Parts D and E for further details.
                                                                                Exhibit B

                     Corporation for National and Community Service
                            Educational Service District 112
                                Schedule of Award Costs
                      Award Number 01ADNOR005 (AmeriCorps)
                            August 1,2001, to June 30,2004




                                    Claimed       Questioned
Detailed Audits of AmeriCorps        Costs       Claimed Costs   Reference

01ADNOROO5 - ESD                   $6,388,946       $   3,180

    Subrecipient: The "1 Have a
       Dream" Foundation              563.6 12             73

Total - Detailed Audits                                          Schedule B-1
                                                                                Schedule B-1

                     Corporation for National and Community Service
                             Educational Service District 112
                        Schedule of Award and Questioned Costs
                              Award Number 01ADNOR005
                             August 1,2001, to June 30,2004

                                                                                Reference
Approved Budget                                                 $8.864.800

Claimed Costs

Questioned Costs
   Unallowable Direct Costs                              3 80                   Note 1
   Unallocable Direct Costs                            1,143                    Note 2
   Payroll Costs not Allocable to Grant                  617                    Note 3
   Unsupported Costs                                     165                    Note 4
   Ineligible AmeriCorps member                          875                    Note 5
   Unsupported Subrecipient Costs                          73                   Note 6

Total Questioned Costs

Notes

   We noted three transactions that did not meet the prescribed cost principles or grant
   provisions. See Compliance Finding Number 1, Parts A, B and C for further details.

   We noted one transaction that was not allocable to the grant. See Compliance Finding
   Number 3, Part A for further details.

   We noted one instance where an ESD administrative employee's time was inadvertently
   claimed to the grant. Effort of this employee, however, was not allocable to the grant. See
   Compliance Finding Number 3, Part B for further details.

   The questioned costs represent the amount ESD would normally charge persons to be
   fingerprinted. AmeriCorps members, however, were not charged a fee for fingerprinting.
   The ESD recorded the funds that normally would have been received ($15 per person) as an
   expenditure chargeable to the grant. See Compliance Finding Number 2 for further details.

   The questioned costs represent two months of living allowance claimed to the grant for a
   member that ESD could not provide proof of citizenship.

   We noted three transactions where The "I Have a Dream'' Foundation members submitted
   handwritten receipts as documentary evidence of costs incurred for mentoring local high
   school students. See Compliance Finding Number 2 for further details.
                                                                            Exhibit C

                    Corporation for National and Community Service
                            Educational Service District 112
                               Schedule of Award Costs
                         Award Number 00LCGWA006 (L&S)
                          September 1,2000, to June 30,2004




LEARN & SERVE
                                                                          Reference

Approved Budget (Federal Funds - 3 Years)                  $   795.000

Claimed Costs                                              $   795.000

   Claimed Costs - ESD                        $ 408.017

   Claimed Costs - Subrecipients              $ 386,983

Questioned Costs                                           $     4,608   Schedule C-1
                                                                              Schedule C-1

                    Corporation for National and Community Service
                            Educational Service District 112
                       Schedule of Award and Questioned Costs
                            Award Number 00LCGWA006
                          September 1,2000, to June 30,2004




                                                                               Reference

Approved Budget                                                $795.000
Claimed Costs                                                  $795.000
Questioned Costs
   Unsupported Subrecipient Costs                $    2,472                    Note 1
   Unallocable Direct Costs                           1,125                    Note 2
   Unallowable Direct Costs                           1,011                    Note 3

Total Questioned Costs                                         $ 4:608

Notes

   We reviewed a Langley Middle School journal entry that did not have documentation
   necessary to support the costs claimed to the grant. See Compliance Finding Number 2 for
   further details.

   We noted six transactions that were not allocable to the Learn & Serve grant. One
   transaction was credited from the grant by ESD when questioned during fieldwork. The
   costs questioned do not include that transaction. See Compliance Finding Number 3, Part A
   for further details.

   We noted three transactions that did not meet the prescribed cost principles or grant
   provisions. See Compliance Finding Number I , Parts A, B and D for further details.
CONMD~~                                                                         CERTIFIED PlJBLlc ACCOUNTANTS

ASSOCIATES,                           u..P
                                                                                              2301 OUPONT DRIVE, SUITE 2 0 0
                                                                                                   IRVINE, CALIFORNIA 9 2 6 1 2
                                                                                                                (949) 4 7 4 - 2 0 2 0
                                                                                                            Fax (949) 2 6 3 - 5 5 2 0




 Office of Inspector General
 Corporation for Nationa! and Conlmunity Service


    INDEPENDENT AUDITOR'S REPORT ON COMPLIANCE AND ON INTERNAL
                CONTROLS OVER FINANCIAL REPORTING


 We have audited the Schedules of Award Costs, as presented in Exhibits A through C, that
 summarize the claimed costs of ESD under the Corporation awards listed below, and have issued
 our report thereon, dated October 22,2004.

    Program               Award Number                       Award Period                      Audit Period

 AmeriCorps               00ADNOR005                    8/1/00 to 12/31/01                8/1100 to 1 213 1101
 AineriCorps              0 1ADNOROOS                   8/1/01 to 12/31/04                8/1/01 to 6/30/04
 Learn & Serve            00LCGWA006                    9/1/00 to 9/30/04                 9/ 1/00 to 6/30/04

 We conducted our audit in accordance with auditing standards generally accepted in the TJnited
 States of America and the generally accepted government auditing standards. Those standards
 require that we plan and perform the audit to obtain reasonable assurance about whether the
 financial schedules are free of material misstatement.

                                                   Compliance

 Compliance with laws, regulations, and the provisions of the awards is the responsibility of
 ESD's management. As part of obtaining reasonable assurance about whether the financial
 schedules are free of material misstatement, we performed tests of compliance with certain
 provisions of laws, regulations, and the terms and conditions of the awards. However, our
 objective was not to provide an opinion on overall compliance with such provisions.

 A. Com~lianceFindin~sResulting in Oucstioned Costs

 The results of our tests of compliance disclosed the following instances of noricompliance:




                     MEUBER5 Or 4iCPA AND CALIFORNIA SOCIETY O r CERTlllED PUBLIC ACCOUNTANTS
          MCMULR OF Ah C91CAN l h ' T J T E Or CFRTlrlEP YJBLIC \CCOUNTANTS PR'VATF COMPANIES PIWC: EE SECTION
Finding No. 1

Condition

Unallowable costs totaling $1,6 14 were charged to the grants as identified below:

       A. The ESD claimed costs incurred to prepare proposals without obtaining prior
          approval from the Corporation. These costs are not allowed to be claimed as direct
          charges unless prior approval is obtained from the Corporation according to OMB
          Circular A-87, Attachment B, section 34. The ESD charged $844 to Learn & Serve
          grant number 00LCGWA006 in January 2004 and $66 to AmeriCorps grant number
          01ADNOR005 in March 2002.

       B. The ESD paid consultants in excess of the allowed $443 per day as prescribed in the
          AmeriCorps and Learn & Serve grant provisions. Costs for a consultant to provide
          first aid training were charged to grant number 01ADNOROO5, and costs for Learn &
          Serve assistance to grant number 00LCGWA006. The fee was $500 per day for two
          days in October 2001 and $490 per day for two days in March 2002. As such, we
          have questioned the difference between the actual costs claimed less allowable costs,
          or $1 14 ($57 x 2 days) and $94 ($47 x 2 days), respectively.

       C. The ESD claimed donations totaling $200 to an environmental law conference that
          AmeriCorps members attended under AmeriCorps grant number 0 1ADNOROO5. The
          donations were paid to help cover the cost of childcare for attendees. These costs are
          not allowable per OMB Circular A-87, Attachment B, section 12(a):

                  Contributions or donations, including cash, property, and services,
                  made by the governmental unit, regardless of the recipient, are
                  unallowable.

            The ESD claimed costs in excess of the allowable lodging rates on two occasions.
            OMB Circular A-87 requires the grantee to claim costs in accordance with its own
            travel policies. As such, we compared costs claimed to costs allowed according to
            ESD policies. We noted one instance where lodging for a speaker at Trout Lake,
            Washington, was provided at $178 per night. The allowable rate was $55 per night.
            We have questioned the difference ($123) claimed to grant number 00ADNOR005.
            We noted another instance where an ESD employee incurred costs exceeding the
            allowable rate while performing a Learn & Serve site visit. The cost incurred was
            $138 per night while the allowable rate was $65 per night. We have questioned the
            difference ($73) claimed to grant number 00LCGWA006.

        E. The ESD claimed costs to AmeriCorps grant number 00ADNOR005 for a scholarship
           provided to a high school student for $100 of computer-related supplies. Per
           discussion with the grantee, the scholarship was established for the purpose of
           promoting the AmeriCorps program. OMB Circular A-87, Attachment B, section
            l(Q(3) stipulates that the costs of promotional items are unallowable.
In order for costs to be reimbursable under Corporation grants, the charges must be allowable,
allocable and reasonable, and in accordance with grant terms, conditions, and governing
provisions and regulations.

The effect of this condition is that unallowable costs were charged to the various grants audited
as noted.

This finding is also considered to be an internal control weakness.

Recommendation

We recommend that the Corporation determine the allowability of the costs in question as
identified above. Based on the resolution, we recommend that ESD adjust its completion of
future financial status reports for ongoing grants accordingly. In addition, we recommend that
ESD establish financial and accounting controls that would preclude charging unallowable costs
to Corporation grants.

ESD's Response

   A. The ESD agreed that prior approval should have been obtained before claiming proposal
      costs, and will do so in the future.

   B. The ESD disagreed with the questioned costs. It agreed that there is a cap on the amount
      that a contractor can receive per day, however, that amount is not inclusive of indirect
      expenses, travel, and supplies that may be charged, as stated in Corporation guidelines.
      The ESD argued that the identified unallowable costs represented other charges, beyond
      the daily rate charged by the contractor, and should be allowed.

    C. The ESD disagreed with the questioned costs. It indicated that the payment of $200 was
       not a donation to cover the cost of childcare, as the members did not bring any children
       to this conference. The ESD maintained that the fee was for registration at the
       conference ($25 per person). It further indicated that this outlay was clearly listed as a
       registration fee on the registration form. The ESD acknowledged that the word donation
       also appeared on the form; however, it interpreted the charge as a fee for attending the
       conference and believes the cost should be an allowable charge to the grant.

   D. The ESD disagreed with the questioned costs and stated that its policy includes several
      exceptions to the maximum lodging rules that were not noted by the auditors. The policy
      provides that, in certain situations, the agency head or an authorized designee may
      approve payments in excess of 150 percent of the applicable maximum per diem amount.

   E. The ESD concurs that this is an unallowable cost and no longer provides this
      scholarship. This occurred in Program Year 2000-01 and this type of expenditure was
      discontinued the following year.
Auditor's Comment

   A. Inasmuch as ESD does not dispute the facts of the finding, the finding remains
      unchanged.

   B. Our interpretation of the provisions limits labor costs paid to consultants to $443 per day.
      Although the provisions allow for costs exceeding $443 per day (for costs such as
      indirect expenses, travel and supplies) to be paid to consultants, the documentation
      reviewed during our testing indicated the costs were specific only to labor costs. The
      ESD's response did not provide any specific documentation to support that the excess
      costs claimed represented anything other than labor costs. Accordingly, the finding and
      the disallowed costs remain unchanged.

   C. Based on the text contained on the registration form, we still believe these costs represent
      donations. Specifically, an excerpt from the form states, "As you may well know,
      organization of the Conference is entirely voluntary and no attendees are turned away.
      We offer a sliding scale entrance fee and ask those who can afford it to pay more.
      Donations allow us to invite speakers and panelists who, without your assistance, could
      not be at the Conference. Donations also help us pay for other expenses, such as printing,
      mailing, telephone, facility use, and summer stipends to students accepting public interest
      law positions." Based on the language in the form, it appears as though the members
      would have been allowed to attend the conference whether or not payment had been
      made. Therefore, we consider payments made to the Friends of Land Air Water to be
      donations. Accordingly, the finding and disallowed costs remain unchanged.

   D. In order for the 150 percent rule to be applied, the agency head or an authorized designee
      must approve the payment of excess lodging expenses. Had approval been obtained, we
      would have applied the 150 percent excess rate structure to the lodging and calculated the
      difference. The recalculated difference between lodging claimed and lodging, using the
      inflated rate, would have been as follows:

              Trout Lake costs claimed - $178; inflated (150 percent) lodging rate per policies
              ($55) = $83.
              Learn & Serve site visit   - $138; inflated (150 percent) lodging rate per policies
              ($65) = $98

       Even if approval had been obtained, and the 150 percent rule been applied, the costs
       claimed would have still exceeded those allowable per the policies and per the
       recalculated figures above. However, since approval was not obtained, the finding and
       disallowed costs remain unchanged.

   E. Inasmuch as ESD does not dispute the facts of the finding, the finding and disallowed
      costs remain unchanged.
Finding No. 2

Condition

Costs not supported by proper documentation were charged to the grants as noted in the
following table:

                        Grantee                         Grant              Amount




            Langley Middle School                  00LCGWA006              $2.472
                     Total Unsupported Costs                               $2,7 10       I



OMB Circular A-1 10, Subpart C, 5-.53(b) requires that "[flinancial records, supporting
documents, statistical records, and all other records pertinent to an award shall be retained for a
period of three years from the date of submission of the final expenditure report." Without
proper supporting documentation, a determination of allowability, allocability and
reasonableness cannot be determined.

The effect of this condition is that unallowable and non-allocable costs may have been charged
to the grants noted.

This finding is also considered to be an internal control weakness.

Recommendation

We recommend that the Corporation determine the allowability of the costs identified above.
We further recommend that ESD strengthen controls to ensure that costs charged to Federal
awards are properly supported by appropriate documentation.

ESD's Response

The ESD agreed that the $73 of undocumented expenditures by its subgrantee, the I Have a
Dream Foundation, should not have been paid. In addition, ESD also agreed that the payment of
$2,472 to Langley Middle School should not have been allowed. The ESD stated that, in the
future, it will work with its subgrantees to assure they have the proper documentation to
substantiate their expenditures. In addition, backup documentation will be reviewed during site
visits.

The ESD disagreed with the disallowance of $165 charged by ESD's fingerprinting department
to fingerprint 11 members ($1 5 per fingerprint). It stated that it operates a fingerprinting service
for ESD programs and local school district staff and that a nominal fee is charged to cover the
staff charges for this service. The ESD stated that each ESD program is self sufficient and if the
$15 fee was not collected, ESD could not offer this service. The ESD believes this should be an
allowable cost because it is charged to everyone who uses the service and is not an arbitrary fee
imposed by ESD to generate additional revenues.

Auditor's Comment

The costs claimed for fingerprinting amounted to $704, of which $539 was paid to the
Washington State Patrol for processing the fingerprinting. There was no exchange of funds by
ESD or the members that supports the remaining $165. Additional costs incurred by the ESD's
fingerprinting department would be recovered under the grant's Administrative rate applied to
costs claimed. We therefore continue to believe that the costs should be disallowed.

Inasmuch as ESD agrees with the finding pertaining to unsupported subgrantee costs, the
disallowed costs remain unchanged.

Finding No. 3

Condition

   A. Non-allocable direct costs were charged to two of the three grants under review. A
      review of these costs revealed instances of costs that were not allocable to the
      AmeriCorps program. Our testing included a transaction totaling $5,372 charged to
      AmeriCorps grant 01ADNOR005 for individuals to attend a National and Community
      Service Program entitled "Mining our Gold" in Bonneville, Washington. The costs
      covered registration and meals for 47 people. We noted, however, that 10 of those people
      (or 21.28 percent) were not involved with the AmeriCorps program, so their costs for the
      event should not have been claimed to the grant. Rather, these costs should have been
      charged to the appropriate cost centers consistent with how their labor was recorded.
      Accordingly, we applied 21.28 percent to the total cost of the event to determine the
      unallocable costs charged to the AmeriCorps grant, which amounted to $1,143 ($5,372 x
      2 1.28 percent).

    B. There were also costs charged to Learn & Serve grant 00LCGWA006 that were not
       allocable to the grant. These costs concerned an ESD employee whose level of effort was
       mostly related to another Learn & Serve grant the Corporation awarded to ESD. The
       unallocable costs included registration fees for an event, miscellaneous mileage for use of
       the motor pool vehicle, and print center charges to reproduce a publication. Total non-
       allocable costs charged to the grant amounted to $1,125.

       Non-allocable payroll costs were charged to AmeriCorps grants 00ADNOR005 and
       01ADNOR005 in the amounts of $1,453 and $61 7, respectively. We found one instance
       where an AmeriCorps member's living allowance was charged entirely to grant number
       00ADNOR005, rather than the required allocation between costs charged to the
       Corporation (85 percent) and costs charged to the grant match (15 percent). The costs
       questioned of $1,453 represent the amount that should have been charged to the match.
       We found one instance where an ESD employee's time was allocated to the
       01ADNOROO5 grant, but whose level of effort did not benefit the AmeriCorps program.
        The costs questioned of $6 17 represent the total unallocable charges to the grant.

In order for costs to be reimbursable under Corporation grants, the charges must be allowable,
allocable and reasonable, and in accordance with grant terms, conditions and governing
provisions and regulations.

OMB Circular A-87, Attachment A, section C(3) states in part: "A cost is allocable to a
particular cost objective if the goods or services involved are chargeable or assignable to such
cost objective in accordance with relative benefits received."

The effect of these conditions was that $4,338 of non-allocable costs was charged to the grants.

This finding is also considered to be an internal control weakness.

Recommendation

We recommend that the Corporation determine the allowability of the costs identified above.
We further recommend that ESD strengthen controls to ensure that costs charged to Federal
awards are allocable to the grants.

ESD's Resvonse

    A. The ESD stated that these costs were applied incorrectly by ESD and that the costs will
       be segregated according to the assignment of staff.

    B. The ESD concurred with the finding and stated that it would more closely monitor
       expenditures in like programs to determine the correct allocation of costs.

    C. The ESD agreed with the finding and stated that it will monitor payroll distribution
       reports to assure that costs are allocated correctly between the grant and the match
       account.

Auditor's Comment

Inasmuch as ESD agrees with the findings, the disallowed costs remain unchanged.

Finding No. 4

Condition

The ESD enrolled a member into the AmeriCorps program under Grant Number 01ADNOROOS
in May 2004 without having received completed eligibility documentation. Specifically, the 1-9
form,' used by ESD for purposes of eligibility verification, was incomplete because the member
never completed the section confirming that he was a United States citizen or national, an alien

1 The 1-9 form is    a US. Department of Justice, immigration and Naturalization Service, Employment Eligibility
Verification form.
authorized to work, or a lawful permanent resident.

AmeriCorps Provision 6, Eligibility, Recruitment, and Selection, requires that the grantee
maintain verifiable records that documents each member's eligibility to serve.

Without complete member files, ESD cannot verify that member eligibility requirements are
being met. In order to ensure that grant funds are used for the purposes intended, it is important
to make certain that only qualified members are allowed to serve.

It should be noted that ESD requested and received a new 1-9 form from the member subsequent
to the audit exception being identified in early October 2004. ESD included the new 1-9 form
with its response. The new form, however, was still not properly completed. It lacked proper
supporting documentation to provide proof of citizenship. We therefore continue to question the
two months of living allowance claimed against the grant for that member totaling $875.

Documentation acceptable under the requirements of 45 CFR fj 2522.200 include: (1) birth
certificate; (2) United States passport; (3) State Department report of birth abroad; (4) State
Department certificate of birth-foreign service; (5) State Department certification of report of
birth; (6) certificate of naturalization issued by the Immigration and Naturalization Service; or a
(7) certificate of citizenship issued by the Immigration and Naturalization Service. ESD's
internal policies were commensurate with the requirements of the CFR.
This finding is also considered to be an internal control weakness.

Recommendation

We recommend that:

   1. ESD follow its established procedures for proof of citizenship;
   2. ESD obtain documentation to establish proof of citizenship and submit this
      documentation to the Corporation.

ESD's Response

The member in question returned the completed 1-9 in early October. The ESD disagrees with
this finding as the auditor looked at 148 files and found only one form missing. The ESD
believes, on a statistical basis, this should not be a reportable finding. The ESD will, however,
include this as an item to check when it audits files. In addition, ESD will attempt to obtain the
birth certificate of the member in question.

Auditor's Comment

Our sampling approach was not statistical and therefore exceptions, regardless of immateriality,
are reported. We agree with ESD's approach to verify that 1-9's are completed when auditing
files.
B. Compliance Findings

Finding No. 5

Condition

The ESD did not require its part-time AmeriCorps members to have criminal record checks for
the first year of its 00ADNOR005 grant representing the period August 1, 2000, through July 3 1,
2001. AmeriCorps Provision 6(h) states that criminal record checks should be performed for
members in accordance with State law. The Washington State law requires persons, including
minors who participate in unsupervised contact with children, to receive criminal background
checks.

We identified 28 part-time members meeting the following criteria:

    1. The member received an education award;

   2. The member service involved interaction with children;

   3. The member was enrolled in the program without ESD running a criminal record check;
      and,

   4. There was no evidence of supervision during the member's time spent with children.

Education awards totaling $31,884 were awarded to these 28 members. As such, we are
questioning these awards on the basis that the members should have received background checks
prior to being accepted into the AmeriCorps program. Alternatively, we are questioning these
awards because ESD did not provide evidence that supervision occurred while the members
interacted with children. The current practice at ESD is to require all members, full-time and
part-time, to receive a background check prior to enrollment. This finding is also considered to
be an internal control weakness.

Recommendation

We recommend that ESD continue its current practice of requiring all prospective members to
receive background checks. We also recommend that the Corporation determine the allowability
of the education awards paid to the 28 individuals in question should ESD be unable to find
acceptable documentation to negate the effect of this finding.

ESD's Response

The ESD contacted the supervisors of the 28 part-time members and received 17 responses that
acknowledged the members were supervised at all times during any contact with children. The
ESD is awaiting responses covering the remaining 11 members and believes these members also
were supervised during contact with children or had background checks conducted by the agency
for which they worked. The ESD further stated that, since 2001, fingerprinting has been done for
all full and part-time members.

Auditor's Comment

The ESD has been able to support the fact that most members were supervised while working
with children. Of the 75 members originally identified as working with children, ESD has
resolved all but 11 exceptions. The ESD's success in resolving most of the exceptions, and the
fact that ESD's current policy from 2001 to current, is to require background checks for all
members, has caused us to change our position on the finding. Although the condition still
constitutes a compliance finding, we do not feel it appropriate to question the education awards
granted to the remaining members. We have omitted those costs from the questioned cost
included in the Exhibits and Schedules.


Finding No. 6

Condition

Our review of 148 member eligibility files disclosed the following exceptions:

    1       Type of Exception           1   Number of    1   Grant Number
                                            Exceptions
        File did not include mid-year           7            00ADNOR005
    1
    I
        or year-end evaluations
        File did not include a W-4
        form
                                                         I   OoADNoROb5

        File did not include member             12           00ADNOR005
        orientation documentation
        File did not include member            20            0 1ADNOROOS
        orientation documentation

The AmeriCorps Provisions state the following:

          B(7)(g)       The grantee must conduct at least a mid-term and end-of-term
                        written evaluation of each member's performance.

          B(l l)(d)(iii) The grantee must withhold Federal personal income taxes from
                         member living allowances, requiring each member to complete a
                         W-4 form at the beginning of the term of service.

          B(7)(c)       The grantee must conduct an orientation for members and comply
                        with any pre-service orientation or training required by the
                        Corporation.
Recommendation

We recommend that ESD reiterate to its staff the importance of retaining eligibility
documentation in each member file in order to achieve compliance with all applicable
provisions.

ESD's Response

The ESD will make sure that all proper documentation is included in member files. Future
audits of files will inciude these items.

Auditor's Comment

We agree with ESD's response.


Finding No.7

Condition

Member information submitted to the National Service Trust database via the Web-Based
Reporting System (WBRS) by ESD has not been entered in a timely manner. AmeriCorps
Provision 8(c) requires that grantees input member enrollment and exit information within 30
days. The information on 51 enrollment forms and 25 exit forms was entered into WBRS after
the allotted 30 days. The information entered into WBRS ranged from four days late to 178 days
late.

The ESD subrecipient, The "I Have a Dream" Foundation, also submitted member information
to WBRS late. There were 11 instances of information on enrollment forms being entered late.
The information entered into WBRS ranged from 14 days late to 163 days late. There was also
one instance of an exit form being entered into WBRS 34 days late.

Twenty-nine of the enrollment forms and two of the exit forms for ESD were entered late
because the Corporation's Grants Office had not entered the Grants Information Profile into
WBRS. This precluded ESD from accessing WBRS. For the other forms, the audit identified no
specific cause for ESD or its subrecipient entering the data late.

The effect of this finding is that the National Service Trust database does not contain current and
accurate information.
Recommendation

We recommend that:

   1. The ESD more closely monitor its members and its subrecipient's members to ensure that
      the AmeriCorps Provisions are being followed regarding National Service Trust database
      member information; and,

   2. The Corporation enters the Grant Information Profiles into WBRS in a timely manner to
      ensure that grantees can comply with the grant provisions that require enrollment and exit
      information to be entered in WBRS within 30 days.

ESD's Response

The ESD agrees with the auditor's recommendation and will report information on a timely
basis.

Auditor's Comment

We agree with the ESD's response.


Finding No. 8

Condition

The ESD's Mount Adams facility in Trout Lake, Washington, generates income from the fees it
charges for the AmeriCorps members to live on-site. The expenditures incurred to maintain the
facility are reduced by these fees. During the period of August 2000 through December 2001 for
grant number 00ADNOR005, the facility earned income of $1 14,104, which exceeded the
$1 l2,3 15 of expenditures by $1,789. The income in excess of expenses represents project
income.

AmeriCorps Provision 24(a )states that:

       Income earned as a direct result of the Program's activities during the award
       period may be retained by the Grantee and used to finance the non-Corporation
       share of the Program.

According to 45 CFR tj 2541 .25O(g):

                Program income shall be deducted from outlays        which may be both
                Federal and non-Federal as described in paragraphs   (g)(l) and (2) of this
                section, unless the Federal agency regulations or    the grant agreement
                specify another alternative (or a combination of     the alternatives). In
                specifying alternatives, the Federal agency may      distinguish between
              income earned by the grantee and income earned by subgrantees and
              between the sources, kinds, or amounts of income. When Federal
              agencies authorize the alternatives in paragraphs (g)(2) and (3) of this
              section, program income in excess of any limits stipulated shall also be
              deducted from outlays.

                      Deduction. Ordinarily program income shall be deducted from
                      total allowable costs to determine the net allowable costs. Program
                      income shall be used for current costs unless the Federal agency
                      authorizes otherwise. Program income which the grantee did not
                      anticipate at the time of the award shall be used to reduce the
                      Federal agency and grantee contributions rather than to increase
                      the funds committed to the project.

              (2)     Addition. When authorized, program income may be added to the
                      funds committed to the grant agreement by the Federal agency and
                      the grantee. The program income shall be used for the purposes
                      and under the conditions of the grant agreement.

               (3)    Cost sharing or matching. When authorized, program income
                      may be used to meet the cost sharing or matching requirement of
                      the grant agreement. The amount of the Federal grant award
                      remains the same.

Recommendation

We recommend that ESD credit the 00ADNOR005 grant by the amount of $1,789.

ESD's Response

The ESD does not dispute the calculation for the 00ADNOR005 grant year. The residential
facilities account is running with a deficit balance for the 01ADNOR005 grant (2001-04) of
roughly $8,000. This program has been ongoing for the last ten years and ESD requests that the
Corporation view the issue from an ongoing program standpoint and not from a single grant year.
The deficit in this account was created by startup costs that were incurred due to the membership
and funding pause that occurred when the Corporation experienced a funding shortage from
September 2003 to January 2004. In closing and reopening the center, many unnecessary costs
were incurred which have forced this account into a deficit situation. A return of these funds will
only increase the deficit.

Auditor's Comment

Based on the scope of our audit and our requirements to audit by applying applicable cost
principles to grant costs, we feel the finding should remain as stated. The response is directed
mostly to the Corporation, and as such we suggest ESD work with the Corporation to resolve the
issue.
Finding No. 9

Condition

The ESD is unable to provide documentary evidence that it has properly and effectively managed
the day-to-day operations of grant and subgrant-supported activities. The ESD has consistently
performed programmatic site visits of its Learn & Serve subrecipients. These visits are
summarized in a narrative document, but the narrative does not assess whether specific
performance goals are being achieved by function or activity. The ESD indicated that it recently
began performing fiscal visits and has visited five of nine subrecipients.

Documentation provided by ESD for The "I Have a Dream" Foundation site visit during
Program Year 2001-02 disclosed a review of eight member files. However, there was no
summary or feedback of the results of the visit, nor was there evidence that any monitoring other
than a review of member files occurred. Although the Program Year 2002-03 programmatic
monitoring was well documented, there was no evidence to support that any fiscal monitoring
had taken place.

Both the Learn & Serve and the AmeriCorps Provisions state that:

       The Grantee has full fiscal and programmatic responsibility for managing all
       aspects of grant and grant-supported activities. . . . The Grantee must ensure that
       the Provisions are binding on the sub-grantee programs and other awards as
       applicable."

OMB Circular A-1 33, Subpart D, §- .400, Responsibilities requires that the pass-through entity
monitor the activities of subrecipients to ensure that the funds are used "in compliance with laws,
regulations, and the provisions of contracts or grant agreements." In addition, OMB Circular A-
1 10, Subpart C, §-.5 1(a) Monitoring and reporting program performance, requires that
"recipients are responsible for managing and monitoring each project, program, subaward,
function or activity supported by the award. Recipients shall monitor subawards to ensure
subrecipients have met the audit requirements as delineated in Section.26."

Recommendation

We recommend that ESD:

    1. Summarize and document its Learn & Serve programmatic site visits through the use of
       monitoring tools and/or checklists. These tools should encompass the functions and
       activities of the subrecipient.

   2. Perform fiscal reviews of all subrecipients on an annual basis and retain the
      documentation to prove the reviews have taken place.
ESD's Response

The ESD concurs with the auditor's recommendations and will provide more thorough
documentation of program and financial site visits. It stated that many site visits had been
conducted, but that it should have done a better job assessing programmatic goals.

Auditor's Comment

We agree with ESD's response.


                          Internal Controls Over Financial Reporting

In planning and performing our audit of awards costs as presented in Exhibits A through C for
the period August 1, 2000, to June 30, 2004, we considered ESD's internal controls in order to
determine our auditing procedures for the purpose of expressing our opinion on the financial
schedules and not to provide assurance on the internal controls over financial reporting.

The ESD management is responsible for establishing and maintaining internal controls. In
fulfilling this responsibility, estimates and judgments by management are required to assess the
expected benefits and related costs of internal control policies and procedures. The objective of
internal controls is to provide management with reasonable, but not absolute, assurance that
assets are safeguarded against loss from unauthorized use or disposition. Internal controls also
help ensure transactions are executed in accordance with management's authorization and
recorded properly to permit the preparation of the financial schedules in accordance with
generally accepted accounting principles of the United States of America. Because of inherent
limitations in any internal controls, errors or irregularities may nevertheless occur and not be
detected. Also, projection of any evaluation of the internal controls to future periods is subject to
the risk that procedures may become inadequate because of changes in conditions or that the
effectiveness of the design and operation of policies and procedures may deteriorate.

Our consideration of internal controls would not necessarily disclose all matters of internal
control over financial reporting that might be reportable conditions. Under standards established
by the American Institute of Certified Public Accountants, reportable conditions involve matters
coming to our attention relating to significant deficiencies in the design or operation of the
internal controls that, in our judgment, could adversely affect the entity's ability to record,
process, summarize and report financial data consistent with the assertions of management in the
financial schedules. Material weaknesses are reportable conditions in which the design or
operation of one or more of the internal control components does not reduce, to a relatively low
level, the risk that errors or irregularities in amounts, which would be material in relation to the
financial schedules being audited, may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions.
Internal Control Findings

Finding Nos. 1 tl~rough5, as set forth in the con~pliancesection of the report, are also considered
findings on internal control. We also noted an internal control weal<~iessas set forth in finding
No. 10 below.

Findinp. No. 10

Condition

We noted instances where final payments to menlbers who exit the program early are
inconsistently calculated. These inconsistencies allow lnenlbers to receive payments
disproportionate to the services provided. This condition is caused, in part, by the lack of clear
guidance in the AmeriCorps Provisions.



We recolnmend that:

    1. The ESD modify its method of calculating prorated living allowances paid to members
       who exit the program early so that payn~entsto members are proportionate to hours
       served; and,

    2. The Corporation provide a clear and precise manner to calculate prorated living
       allowances for future claims.

ESD's Response

The ESD believes it was calculating the payments correctly and according to current Corporation
instructions. It would welcome future guidance from the Corporation as to how to handle these
situations.

Auditor's Comment

We agree with ESD's response.

  kd              J,~A    A~)o~;A-,,L.L.~
Conrad And Associates, L.L.P.
Irvine, California
October 22, 2004


This report is intended for the information and use of the Office of Inspector General, as well as
the Corporation, ESD and its subrecipients, and the U.S. Congress. However, this report is a
matter of public record and its distribution is not limited.
                  Appendix A


Response of the Educational Service District 112
+   EDUCAT IONAI.
    SERVICE
                                                                                                  Counties
                                                                                                            1




    January 3,2005                                                                                  1
                                                                                                            1                   I
                                                                                                                                    6



                                                                                                    Board of Directors
                                                                                                                            1   1 1'.

                                                                                                                I               1   ,,3c
                                                                                                                                r           1

    Mr. Stuart Axenfeld                                                                             ?   3
                                                                                                                        I                   I-


    CNCS Audit Manager                                                                                                                           L

                                                                                                                    '                   1
    National and Community Service
    Office of Inspector General
    1201 New York Avenue, NW Suite 830
    Washington D.C. 20525

    Dear Mr. Axenfeld:

    The purpose of this letter is to respond to the audit findings of the Office of the Inspector
    General dated December 2005 as they relate to AmeriCorps grants 00ADNOR005 and
    01ADNOROO5, and Learn and Serve grant 00LSGWA006 during the period September
    1,2000 through June 30, 2004. I would like to begin by letting you know the ESD is
    pleased with the audit. ESD Chief Financial Officer, Tim Merlino, has reported to me the
    auditors assigned to the ESD were both professional and thorough. Though the process
    was time-consuming, we have gained knowledge that will assist us in future grants
    management. We would like to thank Rene Jorgeson for his willingness to learn how the
    ESD manages grants, and for listening to concerns we expressed during the audit process.

    The ESD has enjoyed a decade-long partnership with the Corporation in providing
    outstanding community service programs to the Pacific Northwest. During this period,
    the Corporation provided more than $20 million for these programs. We are proud to
    have been chosen to provide these programs and likewise are proud of our staff and
    members for the services provided in our communities.

    The ESD has a long history of receiving "finding-free" audits at federal, state, and local
    levels. The state of Washington audits all government entities and recently commended
    the ESD fiscal staff for its continuing exemplary performance over an eight year period.
    Our practice is to provide analysis and justification for questioned costs and that is what
    is contained in the balance of this letter.

    Compliance Finding Resulting in Questioned Costs

    Finding No. 1

    Unallowable costs totaling $1,614 were charged to the grants.

        A. The ESD claimed costs of $910 to prepare proposals without obtaining prior
           approval from the corporation.
Mr. Stuart Axenfeld 1 Office of Inspector General
Page 2 of 10
January 3,2005


       ESD's Response

       The ESD agrees that prior approval should have been obtained before incurring
       these costs, and will do so in the future.

   B. The ESD paid consultants in excess of $443.00/day totaling unallowable costs of
      $208.

       ESD's Response

       There is a cap on the amount that a contractor can receive per day but that is not
       inclusive of indirect expenses, travel, and supplies that may be charged as stated
       in the CNS guidelines. (Exhibit A) The ESD would argue that these unallowable
       costs represent other charges beyond the daily rate charged by the contractor and
       should be allowed.

   C. The ESD claimed donations totaling $200 to an environmental law conference
       8 ArneriCorps members and staff attended. Donations were paid to help cover
      the cost of childcare for the attendees.

       ESD's Response

       The payment of $200 was not a donation to cover the cost of childcare. The
       members did not bring any children to this conference. The fee was for the
       registration at the conference. ($25 per person) This is clearly listed as a
       registration fee on the Registration Form. The word donation also appears on the
       form; however, the ESD interprets the charge as a fee for attending the conference
       and should be an allowable charge to the grant.

    D. The ESD claimed costs in excess of the allowable lodging rates on two occasions.
       In one instance lodging for a speaker at Trout Lake, Washington, was provided at
       $178 per night, the allowable rate was $55 per night. In anther instance an ESD
       employee incurred costs exceeding the allowable rate while performing a Learn
       and Serve visit.

       The auditors questioned these costs because the ESD was not following its own
       policies.

       ESD's Response

       ESD policy has several exceptions to the maximum lodging rules that were not
       noted by the auditors. ESD travel guidelines are the same as the State Office for
       Financial Management (OFM). These guidelines allow for exceptions that allow
       for payment of greater than 150% of the maximum per diem amount. The
       auditors only used the maximum lodging rates in calculations, not the maximum
       per diem, which includes meals and lodging. amounts. ESD and state policy
       reads as follows: (see exhibit B)
Mr. Stuart Axenfeld / Office of Inspector General
Page 3 of 10
January 3,2005


       In the following situations the agency head or authorized designee may approve
       the payment of lodging expenses in excess of 150% of the applicable maximum
       per diem amount for the location:

           The traveler is required to attend a meeting, conference, convention, or
           training session where the traveler is expected to have business interactions in
           addition to scheduled events; AND
           It is anticipated that maximum benefit will be achieved by authorizing the
           traveler to stay at the lodging facilities where the meeting, conference,
           convention, or training session is held; AND
           The lowest available advertised lodging rate at the lodging facility exceeds
           150% pf the applicable maximum per diem amount for the location.
           Documentation supporting the lodging rates is to be attached to the travel
           voucher or its file location referenced. The form of documentation is defined
           by each agency.

       In these particular cases both instances fall within the "exception" to the rule
       category. The finding directed to the Learn and Serve grant is further explained
       by the fact that there are no hotels in Langley, Washington, only bed and
       breakfast establishments. Langley is a small resort town on Whidbey Island,
       north of Seattle.

       The ESD believes it does have policies in place and these policies were followed
       in the cases mentioned by the auditor. These travel claims should be allowed.

    E. The ESD claimed costs to ArneriCorps grant number 00ADNOR00.5 for a
       scholarship provided to a high school student for $100 for computer supplies.
       OMB Circular A-87, Attachment B, section (l)(f)(3) stipulates that the costs of
       promotional items are unallowable.

       ESD's Response

       The ESD concurs this is an unallowable cost and no longer provides this
       scholarship. This occurred in 2000-01 and this type of expenditure was
       discontinued the following year.

Finding No. 2

Costs not supported by proper documentation were charged to the grant. These costs
included subgrantee expenditures that did not have the required support to determine
eligibility.

ESD's Response

The ESD agrees the $73 of undocumented expenditures by the I Have a Dream
Foundation (an ESD subgrantee) should not have been paid. The ESD also agrees the
payment of $2,472 to Langley Middle School should not have been allowed.
Mr. Stuart Axenfeld 1 Office of Inspector General
Page 4 of 10
January 3,2005


In the future the ESD will work with our subgrantees to assure they have the proper
documentation to substantiate their expenditures. Backup documentation will be
reviewed during site visits.

ESD's Response

The auditor also disallowed the $165 the ESD fingerprinting department charged to
fingerprint 1 1 members ($15 per fingerprint). The ESD operates a fingerprinting service
for ESD programs and local school district staff. In order to cover the staff charges for
this service a nominal fee must be collected. Fifteen dollars is charged to each person
fingerprinted. Each ESD program is self sufficient and not subsidized by the ESD. If the
$15 were not collected, the ESD could not offer this service. This is not an arbitrary fee
imposed by the ESD to generate additional revenues. The ESD believes this should be an
allowable cost as it is charged to everyone who uses this service.

Finding No. 3

Condition

   A. Non-allocable direct costs were charged to two of the three grants under review.
      A review of these cost revealed instances of costs that were not allocable to the
      AmeriCorps program. The costs covered costs for registration and meals for 47
      people of which 10 were not related to the AmeriCorps program. The total
      amounted to $1,143.

ESD's Response

These costs were applied incorrectly by ESD. The ESD will split costs out according to
the assignment of staff.

       There were also costs charged to Learn & Serve grant 00LCGWA006 that were
       not allocable to the grant. These costs concerned an ESD employee whose level
       of effort was mostly related to another Learn and Serve grant the Corporation
       awarded to ESD. Total non-allocable costs charged to the grant amounted to
       $1,125.

ESD's Response

The ESD concurs with the finding of the auditors. The ESD will more closely monitor
expenditures in like programs to determine the correct allocation of costs.

    B. Non-allocable payroll costs were charged to AmeriCorps grants 00ADNOR005
       and 0 1ADNOROO5 in the amounts of $1,453 and $6 17, respectively. There was
       one instance where an AmeriCorps member's living allowance was charged
       entirely to grant number 00ADNOR00.5, rather than the required allocation
       between costs charged to the Corporation (85 percent) and costs charged to the
       grant match (15 percent). The costs questioned of S 1,453 represent the amount
Mr. Stuart Axenfeld / Office of Inspector General
Page 5 of 10
January 3,2005


       that should have been charged to the match. There was also one instance where
       an ESD employee's time was allocated to the 01ADNOROO5 grant, but whose
       level of effort did not benefits the AmeriCorps program. The costs questioned of
       $6 17 represent the total unallocable charges to the grant.

ESD's Response

In both cases the ESD agrees with the auditor's finding. The ESD will monitor payroll
distribution reports to assure that costs are allocated correctly between the grant and the
match account.

Compliance Finding Resulting in Questioned Education Awards

Finding No. 4

Condition

The ESD did not require its part-time AmeriCorps members to have criminal record
checks for the first year of its 00ADNOR005 grant representing the period August 1,
2000, through July 3 1,2001. AmeriCorps Provision number B(6)(h) states that criminal
record checks should be performed by members in accordance with State law. The
Washington State law requires persons, including minors who participate in unsupervised
contact with children, to receive criminal background checks.

Twenty eight part-time members were identified as meeting the following criteria:

       1. The member received an education award;
       2. The member service involved interaction with children;
       3. The member was enrolled in the program without ESD running a criminal
          record check; and,
       4. There was no evidence of supervision during the member's time spent with
          children.

Education awards totaling $3 1,884 were awarded to these 28 members. As such, the
auditors questioned these awards on the basis that the members should have received
background checks prior to being accepted into the AmeriCorps program. Alternatively,
these costs are being questioned because the ESD did not provide evidence that
supervision occurred while the members interacted with children. The current practice at
ESD is to require all members, full-time and part-time, to receive a background check
prior to enrollment.

ESD's Response

As previously stated by the auditor, Washington State law requires persons, including
minors who participate in unsupervised contact with children, to receive criminal
background checks. The ESD is aware of this law and during the 2000-01 grant year
recognized its members would not have unsupervised contact with children.
Mr. Stuart Axenfeld / Office of Inspector General
Page 6 of 10
January 3,2005


The auditor seems to be taking the approach that the ESD members had unsupervised
contact with students unless ESD can prove otherwise. With that in mind the ESD has
contacted the supervisors of the 28 part-time members, receiving responses covering
seventeen members, that acknowledge the members were supervised at all times during
any contact with students. The ESD did not have time to include this information in the
original report; if there had been time, the total members in question would have been
eleven out of 75. The ESD is awaiting the other eleven responses. Of the 17, three
members did have background checks in their second term with the Northwest Service
Academy. Documentation from the program supervisors will be included as exhibit C.
The remaining members which ESD is awaiting a response for are listed as follows:
(also shown on exhibit C)

Jajetta Bowman
Roza Brodovsky
Lola Bynum
Maureen Herman
Rebecca Peatow
Karen Ropar
Jeffrey Snedon
Dale Casey, Jr.
Jason Jones
Debra Nixdorf
Jeffrey Wright

Total              $13,384.00

The ESD believes these members will also indicate that they, too, were supervised during
contact with students or received background checks from the agency they were working
for. The ESD shares the Corporation's concern regarding background checks and does
not believe in putting children at risk. The ESD feels strongly that it did follow
applicable laws in 2000-01 and that these costs are allowable.

Beginning in 2001 and still in effect the ESD has been fingerprints all full and part-time
members.

Compliance Findings

Finding No. 5

Condition

The ESD enrolled a member into the ArneriCorps program under Grant Number
01ADNOROO5 in May 2004 without having received completed eligibility
documentation. Specifically, the 1-9 form used by ESD for purposes of eligibility
verification, was incomplete because the member never completed the section confirming
he was a United States citizen or national, an alien authorized to work, or a lawful
pennanent resident.
Mr. Stuart Axenfeld 1 Office of Inspector General
Page 7 of 10
January 3,2005


ESD's Response

The member in question did return the completed 1-9 in early October. The ESD
disagrees with this finding as the auditor looked at 148 files and found only one form
missing. On a statistical basis, this should not be a reportable finding. The ESD will,
however, include this as an item to check when it audits files.

Finding No. 6

A review of 148 member eligibility files disclosed the following exceptions:

7 files did not include mid-year evaluations
2 files did not include a W-4 form
12 files did not include member orientation documentation Grant 00ADNOR005
                                                            -



20 files did not include member orientation documentation - GrantOlADNOR005

ESD's Response

The ESD will make sure that all proper documentation is included in member files.
Future audits of files will include these items.

Finding No. 7

Condition

Member information submitted to the National Service Trust database via the Web-Based
Reporting System (WBRS) by ESD has not been entered in a timely manner.
Amencorps Provision B(8)(c) requires that grantees input member enrollment and exit
information within 30 days. The information on 5 1 enrollment and 25 exit forms was
entered into WBRS after the allotted 30 days. The information entered into WBRS
ranged from four days to 178 days late.

ESD's Response

The ESD agrees with the Auditor's recommendation and will report information on a
timely basis.

Finding No. 8

Condition

The ESD's Mount Adams facility in Trout Lake, Washington, generates income from the
fees it charges the AmeriCorps members to live on-site. The expenditures incurred to
maintain the facility are reduced by these fees. During the period of August 2000
through December 2001 for grant number 00ADNOR005, the facility earned income of
S 114,104, which exceeded the $1 12,3 15 of expenditures by S 1,789. The income in
excess of expenses represents project income.
Mr. Stuart Axenfeld I Office of Inspector General
Page 8 of 10
January 3,2005


ESD's Response

The ESD does not dispute the calculation for the 00ADNOR005 grant year. The
residential facilities account is running with a deficit balance for the 01 ADNOROO5 grant
(2001-04) of roughly $8,000. This program has been ongoing for the last ten years and
the ESD requests that the Corporation look at the program issue from an ongoing
program standpoint and not from a single grant year. The deficit in this account is due to
the startup costs incurred due to the shut down that occurred when the Corporation
experienced a funding shortage from September 03 to January 04. In closing and
reopening the center, many unnecessary costs were incurred which now have forced this
account into a deficit situation. A return of these funds will only increase the deficit.

Finding No. 9

Condition

The ESD has consistently performed programmatic site visits of its Learn and Serve
subrecipients. These visits are summarized in a narrative document, but the narrative
does not assess whether specific performance goals are being achieved by function or
activity. The ESD has indicated it recently began performing fiscal visits and has visited
five of nine subrecipients.

ESD's Response

ESD concurs with the auditor's recommendations and will provide more thorough
documentation of program and financial site visits. It should be noted many site visits
have occurred, but we should have done a better job accessing programmatic goals.

Finding No. 10

Condition

The auditor noted instances where final payments to members who exited the program
early were inconsistently calculated. These inconsistencies allowed members to receive
payments disproportionate to the services provided. This condition was caused, in part,
by the lack of clear guidance in the AmeriCorps provisions.

ESD's Response

The ESD has felt that it was calculating the payments correctly, according to current
Corporation instructions. The ESD would welcome future guidance from the
Corporation as to how it would like these situations handled.
Mr. Stuart Axenfeld 1 Office of Inspector General
Page 9 of 10
January 3,2005


ESD Summarv Statement

The ESD will summarize its position by responding first to compliance issues resulting in
questioned costs, followed by the compliance issues resulting in questioned educational
awards.

Compliance Issues Resulting in Questioned Costs

The independent auditor's report indicated questioned costs of $8,662 applicable to the
three grant awards from 2000-2004. The ESD has stated its position on these costs. The
ESD maintains of the $8,662 in questioned costs, $806 should be allowed. The ESD
concurs with the auditor's assessment that $7,856 of these costs was either unallocable or
unallowable.

However, the ESD also maintains that while these costs are likely not allowable, the total
amount of $7,856 is immaterial and recovery should not be undertaken. The $7,856 is
.07 of one percent of the total $10,090,080 expenditures audited.

Circular A133 Section E.510 (Exhibit D) demonstrates the threshold for auditors
reporting a finding. A133 Section E states an auditor shall report the following as audit
findings in a schedule of findings and questioned costs:

    (1) Reportable conditions in internal control over major programs.
    (2) Material noncompliance with the provisions of laws, regulations, contracts, or
        grant agreements related to a major program.
    (3) Known questioned costs which are greater than $10,000 for a type of compliance
        requirement for a major program.
    (4) Known questioned costs which are greater than $10,000 for a Federal program
        which is not audited as a major program.
    (5) The circumstances concerning why the auditor's report on compliance for major
        programs is other than an unqualified opinion.
    (6) Known fraud affecting a Federal award.

ESD 112 maintains the amount of questioned costs ($7,856 or $8,662) does not meet the
criteria in Circular A 133 requiring the auditors to make a finding or for the federal
government to recover funds. It also appears highly questionable that any of the six
criteria for reporting findings exist in this case and that section of A133 provides the
auditor some discretion over reporting these items at all. In our opinion, and with due
respect, the immaterial amount in question is not worth pursuing once the ESD fully
acknowledges all errors must be eliminated in the future.

Compliance Issues result in^ in Questioned Educational Awards

The ESD provided member eligibility information which the Corporation used to pay for
member educational awards. Stated above, the ESD did follow the intent of the law in
2000, and no members were unsupervised while dealing with children, thus not requiring
a background check. Of the 28 members originally questioned, the ESD has recei~ed
Mr. Stuart Axenfeld 1 Office of Inspector General
Page 10 of 10
January 3,2005


responses addressing 17 of the members from the supervising agency stating that at no
time were these members unsupervised when working with children. As the responses are
factored in, the result is a reduction in the amount of questioned educational award from
$3 1,884 to $13,384. The ESD is continuing to seek confirmations from individual
members as to whether or not they were supervised, but this will take additional time.

Member service credit in order to obtain an educational award is not in question. These
members did serve their time and were entitled to the educational award. The ESD
maintains there are no damages and return of any funds should not be required.

The ESD has made background checks a mandatory requirement for all members,
effective 2001.

In closing, the audit has given us a chance to both reaffirm and reexamine our procedures
to assure the Corporation and the federal government that its monies are being spent
wisely. Once again the ESD would like to praise the work of the audit staff and thank
them for helping us to improve where possible. The ESD appreciates the ability to
respond to all issues and looks forward to a swift resolution of these matters.




Twyla 6. Barnes, Ed.D.
Superintendent

srrn
cc: Tim Merlino, Chief Financial Officer, ESD 112
     Jada Rupley, Associate Superintendent, ESD 112
                        Appendix B


Response of the Corporation for National and Community Sewice
                                 Corporation for                      ,-

                                        a
                                 NATIONAL
                                 COMMUNITY
                                 SERVICE-




To :          Carol Bates, Acting Inspector General
                '               ;     '   "   '
                                                  -   ^   -   -   Y        *(
From:         MargaretRosCnberrq: Director of Grants Management

Cc :          Andrew Kleine, Acting Chief Financial Officer
              Rosie Mauk, Director of ArneriCorps
              Tory Willson, Audit Resolution Coordinator

Date:         December 27,2004

Subject:      Response to OIG Draft Audit Report 05-12, Audit of Corporation for
              National and Community Service Grants Awarded to the Educational
              Sewice District 112

We have reviewed the draft Audit of Corporation for National and Community Service
Gtunts Awarded to the Educational Service District 112. Due to the limited timeframe
for response, we have not thoroughly reviewed the report nor have we discussed it with
the grantee. We will respond to all findings and recommendations when the audit is
issued and we have reviewed the findings in detail.




                       1201 New York Avenue, N U ' * Washington, DC 20525
                             202-606-5000 * www.nationalservice.org
                       Senior Corps   * ArneriCorps * Learn and Serve America        The President's Call to Service
